<html>
<title> - OVERSIGHT OF THE GOVERNMENT PUBLISHING OFFICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                            OVERSIGHT OF THE
                      GOVERNMENT PUBLISHING OFFICE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2020

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      




                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-290                WASHINGTON : 2020         
         
         
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
SUSAN A. DAVIS, California             Ranking Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California


                            C O N T E N T S

                              ----------                              

                             MARCH 3, 2020

                                                                   Page
Oversight of the Government Publishing Office....................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     4
Hon. Rodney Davis, Ranking Member................................     7
    Prepared statement of Ranking Member Davis...................     9

                               WITNESSES

The Honorable Hugh Halpern, Director, Government Publishing 
  Office.........................................................    12
    Prepared statement of Hon. Halpern...........................    14
Mr. Michael P. Leary, Inspector General, Government Publishing 
  Office.........................................................    22
    Prepared statement of Mr. Leary..............................    24
Ms. Laurie B. Hall, Superintendent, Government Publishing Office.    27
    Prepared statement of Ms. Hall...............................    29


             OVERSIGHT OF THE GOVERNMENT PUBLISHING OFFICE

                              ----------                              


                         TUESDAY, MARCH 3, 2020

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:07 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Davis of California, 
Fudge, Aguilar, Davis of Illinois, and Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; Khalil Abboud, 
Deputy Staff Director; Mariam Malik, Staff Assistant; David 
Tucker, Senior Counsel and Parliamentarian; Jose Morales, Staff 
Assistant; Matthew Schlesinger, Oversight Counsel; Veleter 
Mazyck, Chief of Staff for Chairwoman Fudge; Evan Dorner, 
Legislative Assistant for Representative Aguilar; Lisa Sherman, 
Chief of Staff for Representative Susan Davis; Jennifer Daulby, 
Minority Staff Director; Tim Monahan, Minority Deputy Staff 
Director; Susannah Johnston, Minority Professional Staff; and 
Roberto Estrada, Minority Staff Assistant.
    The Chairperson. A quorum being present, the Committee will 
come to order. Good morning. I would like to thank our 
witnesses and those here in the audience for joining us. We are 
here today for an oversight hearing of the Government 
Publishing Office and the important services the agency 
provides to Congress, Federal agencies, and to the American 
people.
    Tomorrow, GPO will turn 159 years old, having the 
distinction of opening its doors on the same day that President 
Lincoln was inaugurated for his first term, March 4, 1861. When 
Congress was debating the creation of a printing office in the 
summer of 1860, Congressman John Gurley from Ohio said: ``It is 
unlike any other department of government service. For ships, 
you can wait. For guns, you can generally wait. And, 
ordinarily, you are in no special hurry for the various 
munitions of war. But you cannot be deprived of your printing 
for a single day without serious embarrassment and loss of 
time.''
    He went on to further say that the agency ``bears no 
analogy to any other departments of the Government.''
    And so, reliably for 159 years, GPO has told the story of 
the proceedings of our government. But as our government has 
changed, GPO has changed along the way. Indeed, as the format 
and delivery of government information has increasingly evolved 
from paper-based to digital, GPO underwent a statutory name 
change from Government Printing Office to Government Publishing 
Office to reflect the changing nature of the agency that 
printed the Emancipation Proclamation.
    GPO is an indispensable partner to Congress. I have come to 
know this firsthand, not only as Member of Congress but also as 
chairperson on the Joint Committee on Printing for the 116th 
Congress. From publishing the Congressional Record, committee 
prints and hearings, the phonebooks, stationery, the GPO makes 
it possible for us to do the jobs we were sent here to do.
    Through its secure identification and credentialing 
function, GPO makes it possible for us to cross international 
borders and secure our Federal buildings. In fiscal year 2019, 
GPO, in cooperation with the State Department, produced more 
than 15 million passports in Washington D.C., and at its secure 
facility in Stennis, Mississippi.
    GPO and the State Department have also been developing a 
new line of passports, the NextGen Passport, making even more 
security improvements to what is currently one of the most 
secure credentials that you can get today.
    Rare among Federal agencies, GPO actually makes money, 
realizing more than $20 million in profit during fiscal year 
2019. GPO's business processes, investments, and leveraging of 
new and existing technologies have enabled the agency to 
request flat funding levels for six consecutive years.
    One example of GPO's financial success and self-sufficiency 
and a testament to its versatility is the agency distribution 
service, which provides over 55 Federal agencies with a 
comprehensive suite of logistic services including web hosting, 
distributions, storage, and order fulfillment of government 
information products. This success, however, would not be 
possible without the hard work of more than 1,600 dedicated 
public servants who work around the clock--literally--to 
fulfill the agency's mission and its commitment to its 
customers. I would like to give special thanks and recognition 
to them today.
    GPO also does more than printing and publishing. The idea 
that government information should be freely and readily 
available to the American public dates back to the early 19th 
century when Congress directed the distribution of House and 
Senate Journals to institutions outside of the Federal 
Government. Since these humble beginnings, the Federal 
Depository Library Program has grown to more than 1,000 
regional and selective libraries staffed by knowledgeable, 
trained experts who are committed to the values of the program, 
and we thank them for that.
    Each member of this Committee represents at least one 
depository library. The Ranking Member and Representative Fudge 
are tied to the distinction to representing the most, with nine 
in each district.
    The Federal Depository Library Program and govinfo website 
are incredible resources that foster the public trust. These 
free services make possible an educated, informed citizenry, a 
more transparent and accessible Federal Government, and through 
that they strengthen our democratic system.
    Still, like all agencies, GPO faces challenges. The agency 
must steady itself from any instability caused by the recent 
prolonged absent of a confirmed Director. GPO must also take 
the proper steps to ensure its future financial vitality by 
attracting and developing a talented workforce and continuing 
to be a leader in customer service for the entire Federal 
Government.
    We hope the agency is in good hands under its new director, 
Hugh Halpern, a true House institutionalist, who I know will 
try to put his own mark on the agency that has told Congress' 
story for these last 159 years. And I will now recognize the 
Ranking Member for any opening statement he might like to 
provide.
    [The statement of The Chairperson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Davis of Illinois. Thank you, Chairperson Lofgren. And 
it is always great to have folks from the GPO join us today. It 
is always also great to hear the history. I didn't know, I 
didn't do the math that GPO was open the day Abe Lincoln was 
sworn into office.
    So thank you, Madam Chair, for that tidbit.
    It is especially meaningful to me because I represent some 
of the areas that Abe Lincoln spent his youth and his career in 
and around Springfield, Illinois. And I joke today I still 
represent Lincoln because he is buried in Lincoln's Tomb which 
is in my district . And if you haven't rubbed the nose on 
Lincoln statue at Lincoln's Tomb, please do that. And now you 
can do that in honor of the birth of the GPO at the same time.
    The GPO opened its doors, as Chairperson Lofgren said, in 
1861, with its primary role of providing the printing needs of 
Congress. Eventually the GPO became known as an official 
disseminator of governmentwide information.
    For nearly 160 years, Congress has relied upon the 
Government Publishing Office for their printing and publication 
needs. Much has changed since the agency's opening that day 
that Abe Lincoln was sworn in as our President, one of the 
biggest changes being the dramatic shift from print to digital 
media.
    According to a 2013 NAPA study, approximately 97 percent of 
all Federal documents are born digital. And most users expect 
to be able to use those documents in their digital form. Demand 
for government-produced information is increasing, but the 
demand on GPO for print has dropped by half. The skyrocketing 
demand for digital formats has also led to a substantial 
increase in fugitive documents. These are Federal Government 
publications that should be retained by the GPO or one of its 
partners for the purpose of ensuring public access to 
government information. It is estimated that at least 50 
percent of government publications are now fugitive.
    Despite recognizing the need to adapt to new challenges, 
the GPO as well as other agencies across the board are 
struggling to keep pace with the advances in technology.
    As Congress seeks to modernize in order to keep up with the 
rest of the Nation, GPO must address the evolving technological 
needs of Congress and its executive branch customers. With 
legislative drafting, Congress needs inoperable technology for 
text drafting and formatting. Converting documents back and 
forth between different tech languages is a time-consuming and 
outdated process. And it is just one of the many hurdles we 
should look to overcome.
    Some of the challenges facing the GPO are institutional 
barriers that will gradually be overcome through new leadership 
at the GPO. But other challenges will require updating the 
statutes that govern the GPO through title 44 reform.
    Tomorrow, March 4th, is the 159th anniversary of when GPO 
began its operation. And I am optimistic that, under Mr. 
Halpern's leadership and the entire team supporting him, GPO 
can position themselves for another century-and-a-half of 
meeting the needs of Congress, the United States Government, 
and the American people. I look forward to hearing our 
witnesses expound on these points and more. Thank you.
    And, Madam Chair, I yield back.
    [The statement of Mr. Davis of Illinois follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    The Chairperson. Thank you very much. Other members may 
submit an opening statement as they wish. We will turn now to 
our witnesses.
    First, let me introduce GPO Director Hugh Halpern, who was 
confirmed by the Senate on December 10th of last year. Mr. 
Halpern comes to the agency after a long career on Capitol 
Hill, where he served in key leadership and committee 
positions. A graduate of American University and George Mason 
University School, Mr. Halpern started as a House intern and 
was most recently Director of Floor Operations for then-Speaker 
Paul Ryan. He has also served numerous congressional 
committees. He was staff director for the Committee on Rules 
and worked as counsel to the Committees on Financial Services 
and Energy and Commerce.
    In addition to his service to our outstanding committees, 
Mr. Halpern served as parliamentarian to the first Select 
Committee on Homeland Security, and general counsel to the 
Select Committee to Investigate the Voting Irregularities of 
August 2, 2007.
    Outside of his congressional service, Mr. Halpern served as 
assistant parliamentarian for the Republican National 
Conventions in 2008, 2012, and 2016.
    We also have Inspector General Michael Leary. He is a 
graduate of the University of Notre Dame and Notre Dame Law 
School, and served in the Office of the Director of National 
Intelligence for 13 years, and in the Inspections Division of 
the CIA Office of the Inspector General. Mr. Leary served as 
executive for the strategic planning at the Council of the 
Inspector General on Integrity and Efficiency, or as it is most 
commonly known CIGIE; as senior attorney at the Department of 
Homeland Security; and senior advisor to the Under Secretary of 
the Department of Treasury from 1996 to 2001. Mr. Leary was 
assistant district attorney in Philadelphia and Boston.
    In addition to his civilian service, Mr. Leary has 33 years 
of combined Active and Reserve service in the United States 
Marine Corps, including tours in Iraq and Afghanistan. He 
received a Bronze Star as well as a Legion of Merit Award and 
retired from the Marine corps in 2016 as a colonel.
    We are thankful to you for your service to our country, Mr. 
Leary, both in the civilian world as well as in your military 
service.
    And, finally, we have the Superintendent of Documents, 
Laurie Hall, who leads the GPO's efforts to provide free public 
access to government information. Ms. Hall serves as the 
managing director of Library Services and Content Management, 
overseeing the Federal Depository Library Program, the 
Cataloging & Indexing Program, the International Exchange 
Service, and the By-Law Program.
    Ms. Hall started her career with the GPO in 1985, serving 
in a number of positions within Library Services and Content 
Management, including supervisory program analyst, serials 
cataloger, cataloging section chief, cataloging branch chief, 
and director of bibliographic services.
    Prior to arrival at GPO, Ms. Hall worked in all manner of 
libraries from the corporate world to academia. She earned her 
bachelor's degree in art history and American studies at the 
University of Virginia, and her master's degree in library 
science at the Catholic University of America.
    Now, at this time, I would ask unanimous consent that all 
members have 5 legislative days to revise and extend their 
remarks and that all written statements be made part of the 
record.
    And, without objection, that is so ordered.
    I would like to remind the witnesses that your full written 
statements will be made part of our record. We would ask that 
your oral statement be about 5 minutes.
    And we will first turn to you, Mr. Halpern, for your 5-
minute statement.

  STATEMENTS OF HUGH HALPERN, DIRECTOR, GOVERNMENT PUBLISHING 
OFFICE, WASHINGTON, D.C.; MICHAEL P. LEARY, INSPECTOR GENERAL, 
  GOVERNMENT PUBLISHING OFFICE, WASHINGTON, D.C.; AND LAURIE 
   HALL, SUPERINTENDENT OF DOCUMENTS, GOVERNMENT PUBLISHING 
                    OFFICE, WASHINGTON, D.C.

                   STATEMENT OF HUGH HALPERN

    Mr. Halpern. Thank you, Madam Chairperson, Ranking Member 
Davis, and members of the Committee.
    I am happy to be here today in my first appearance before 
the Committee on House Administration as Director of the 
Government Publishing Office. And if you will excuse me, I am 
getting used to being on this side of the table.
    Today's hearing on oversight of GPO is a welcome 
opportunity to give you my sense of GPO's condition after just 
under 3 months on the job, as well as my vision for its future.
    Tomorrow, as we have said, will mark 159 years since GPO 
opened its doors. And I am proud to say its future looks sound.
    Financially, I am pleased to report that GPO completed 
fiscal year 2019 with $36.2 million in net positive income 
after all adjustments. Our overall revenue was up $63 million 
over fiscal year 2018, attributable largely to growth in secure 
documents and our print procurement program. This is the tenth 
straight year where GPO has finished the fiscal year in the 
black. Our success has allowed us to make some really important 
investments in our future. We have added six new digital ink 
jet presses to allow us to meet our customers' needs for both 
large and small jobs. We have also continued development of our 
XPub next-generation competition engine, using it to produce 
the current edition of the U.S. Code seven months faster than 
we did the last cycle. And we are working with our House and 
Senate partners to bring this technology to the production of 
bills, resolutions, and amendments within the next year.
    Now, I can't take credit for any of these achievements. 
They are due to the hard work of my predecessors, our GPO 
leadership team, and GPO's more than 1,600 craftspeople and 
professionals.
    While my colleague Laurie Hall will talk about our 
important public information work with our Federal Depository 
Library partners and Mike Leary will talk about his important 
work as inspector general, I want to take a moment to discuss 
the future of GPO's work for Congress. While Congress is not 
GPO biggest customer, it is its most important. Its work is 
critical to the daily functioning of our democracy and also 
among the most labor-intensive of the work done at GPO.
    When I was a staffer many years ago, I worked with this 
Committee and GPO and asked about changing the format of 
committee hearings after seeing how the Parliament of the 
United Kingdom formatted its documents. The most charitable way 
I can put it is that GPO was not ready to talk about changing, 
even if Congress was. Today is different.
    With the advent of XPub and the installation of our new 
digital printing presses, GPO is finally ready to move beyond 
the constraints of merely printing to a model that focuses on 
content. My hope is that Congress has reached a point where it 
is ready to partner with GPO to create documents worthy of the 
21st century. Based on my experience, I believe change is 
critical.
    Because it is hard to produce these legislative documents 
and even harder to quickly glean knowledge from them, 
committees are turning to other kinds of products, like white 
papers or web pages, to communicate about legislation and 
oversight. And I personally believe that we lose something as a 
Nation when our formal documents are not accessible.
    To see how this plays out, let's look at the first page of 
three committee reports on the slide that is up now. The first 
report on the left is from 1861 and was set with handset type. 
The second is from 1936 and was set with hot lead type. And the 
last was reported by this Committee in November and represents 
output from GPO's current digital typesetting system. All three 
look pretty similar. They use small type sizes and tight line 
spacing and are designed for the economy of printing, not for 
readability or accessibility.
    Now, if you go to the next slide, you compare that with a 
similar kind of document from the U.K. House of Commons. That 
document prints on standard-sized paper, uses commercially 
typefaces, and it even uses color. And then, if you go to the 
next slide, it is equally readable on paper, on a screen, or on 
a phone.
    We need to ensure that Congress' documents are accessible 
in any media, print, or digital. We also need to make them 
easier to produce so that the Committee counsel can put their 
effort into the content and not the formatting. If Congress is 
willing to partner with us to make these important changes, the 
end result will be documents that are easier to author, to 
produce, and to consume. And that accrues to everyone's 
benefit: Congress, GPO, and, most importantly, the public.
    I stand ready to work with the Members of this Committee 
and the rest of Congress should you decide that improving the 
readability and accessibility of congressional documents is a 
goal worth pursuing. I am also committed to continuing GPO's 
record of progress, delivering for its customers at every turn.
    Thank you, Madam Chairperson, Mr. Davis, and members of the 
Committee, I would be happy to answer any questions you may 
have.
    [The statement of Mr. Halpern follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    The Chairperson. Thank you, Mr. Director.
    Mr. Leary.

                 STATEMENT OF MICHAEL P. LEARY

    Mr. Leary. Madam Chair, thank you, first of all, for your 
kind words of introduction. I would have to say, based on your 
opening remarks, demonstrating the maxim that ``it is not where 
you stand; it is where you sit,'' I might have taken issue with 
Congressman Gurley's remarks in my prior career as a Marine and 
preferred the weapons and the ships. However, today, I will 
accept the printed material.
    Good morning, Chairperson Lofgren, Ranking Member Davis, 
Members of the Committee. Thank you for the opportunity to 
appear before you today, along with Director Halpern and 
Superintendent Hall.
    Before beginning my oral remarks, I would like to introduce 
my leadership team, who, like me, are fully committed to 
providing valued service to both the GPO and the OIG. They are 
my acting deputy inspector general, Tony Baptiste, who is on 
loan to me from the Commodity Futures Trading Commission--and 
many thanks to their inspector general, Roy Lavik, for that; 
also, Freddie Hall, the assistant inspector general for audits; 
Mr. Al Evora, who is the assistant inspector general for 
investigations; and Mr. Nathan Deahl, who is my assistant 
director general for inspections.
    Last year, I focused on change, whether it was reorganizing 
our office, reworking our products, publishing a new 5-year 
strategy, revising the agency's management challenges, or 
establishing a new law enforcement program. We have 
comprehensively overhauled the way we do business at the Office 
of Inspector General and what we focus on. Much of this was 
only made possible with Congress' support and the agency's 
cooperation.
    We have already published one audit this year with an 
inspection report soon to follow that responds to congressional 
and agency priorities. This is just a start. With continued 
congressional support and agency cooperation, more than half a 
dozen more audits and inspections will be published before the 
end of the fiscal year, all directly supporting agency and 
congressional priorities. Production will also come in the form 
of outreach and education. We have begun an effort to deliver a 
standardized class to all agency employees and as many 
contractors as possible to describe the function of the 
inspector general and the individual employee's role in helping 
us.
    Similarly, we are providing classes on how to detect and 
prevent fraud across any part of the Government Publishing 
Office that interacts with finance and services. For the first 
time, my office will also visit and evaluate all 16 remote GPO 
sites, and it will happen this year.
    Today is the second time I have testified before Congress 
since my appointment 10 months ago. During that time, I have 
also met on more than a dozen occasions with staff from GPO 
House and Senate Oversight Committees and Senate 
Appropriations. I take very seriously my responsibility to keep 
Congress as fully informed as possible to enable their 
oversight function. Within the framework of an independent 
inspector general office, I endeavor to address all of your and 
your staff's questions and concerns as equally and as fully as 
I can.
    I thank you, again, for the chance to address you this 
morning and for supporting the work of my office. I look 
forward to answering any questions that you all might have.
    [The statement of Mr. Leary follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairperson. Thank you very much.
    And now we will turn to our last witness, Ms. Hall.

                    STATEMENT OF LAURIE HALL

    Ms. Hall. Thank you, Madam Chairperson Lofgren, Ranking 
Member Davis, Members of the Committee, thanks for inviting me 
to this meeting this morning. And I am happy to talk to you 
about the Federal Depository Library Program.
    Currently I serve as the superintendent of documents and 
the managing director of Library Services and Content 
Management. And I have been at GPO for many years, as you 
heard. I have a very dedicated staff of 87 information 
professionals that help us man, work, and organize those four 
statutorily mandated programs. Today I am only going to focus 
on the Federal Depository Library Program.
    We implement strategic programs and operation in 
partnerships with our 1,122 nationwide Federal depository 
libraries in collaboration with our colleagues at GPO, other 
agency publishers, and the national libraries. The right to 
public access and the workings of their government has been 
around even before GPO. It dates back to about 1813. So, in 
those 207 years, the program has continually evolved to meet 
the needs of the public and the needs of the library that offer 
this information. And in the last several years, that evolution 
has increased exponentially as we have shifted our focus to our 
libraries having greater flexibility to meet their community 
needs in the digital age.
    You know, as we meet and work and visit our libraries 
throughout the country, we find many of them are facing major 
budget cuts, decreased staffing, and significant space issues. 
In some cases, academic institutions are merging campuses, 
rethinking their degree programs, and some have even shut their 
doors.
    Other libraries are building new facilities and offering 
new services to their communities. And in some cases, these 
libraries are rethinking their role as a Federal depository 
library. They tell us they need more flexibility in managing 
collections in order to remain a member of the FDLP. They tell 
us they need more services from the GPO to help identify, find, 
and collect digital information while still requiring certain 
products in tangible format. Many of these libraries have large 
historic print collections and are looking for GPO to assist in 
the projects that preserve these national assets while helping 
them to mitigate space and storage.
    To meet these needs, we are implementing many new programs, 
tools, and services. In most cases, we do this through 
collaboration and partnership with our libraries, national 
libraries, the Library of Congress, and Federal agencies. These 
relationships save time, staff resources, avoid duplication of 
effort and do save money.
    Currently, LSCM collaborates with over 30 organizations. I 
want to give you a few ideas of some of the things that we have 
accomplished recently. Our libraries want everything in their 
collections to be accessible and identifiable. In 2019, we 
cataloged over 25,000 new resources, and we have over a million 
records in our catalog of U.S. Government publications. In our 
Federal web archive, we have over 23.5 terabytes of data, and 
we have crawled over, yes, 2 million URLs that we have 
harvested as well.
    And everybody wants more digitalized content. We have been 
working to do this, and through our recent digitization efforts 
with a couple different organizations, we have enhanced the 
scope of collections on govinfo.gov. We have done the entire--
with the Office of the Federal Register, we have digitized the 
entire collection of the public papers, the Federal Register, 
and the U.S. Government Manual. We have digitized over 1,300 
historic hearings, dating back to 1958. And we have 10,000 more 
hearings being prepped for digitization as we speak.
    We also started a preservation steward program. We 
currently have 42 libraries that are preserving collections of 
tangible materials and providing services to those libraries to 
support that effort. We are also establishing some pilot 
projects to provide services to libraries for cataloging, 
inventory, preservation and condition assessment. And we hope 
to launch our first pilot in fiscal year 2020. We also work 
with our regional libraries. And our regional libraries have 
very big collections and they serve a very different role from 
our selectives. They are mentors, coordinators, and work with 
the libraries in their State. They want to do more and have 
more flexibility for Regional Discard. We have new models of 
shared collections and new technology to help them manage those 
very, very vast collections.
    We also do a lot to promote government information. We 
partnered recently with Census Bureau to send out tons of 
information to those libraries to promote the 2020 Census. So 
we have been doing all this within the current confines of 
title 44. Recent efforts to revise title 44 are welcomed by GPO 
and our depository library community. And I think there are 
very specific sections of title 44 that could help us better 
manage the program and provide those libraries with the needed 
flexibility, especially as it relates to digital collections. 
And we would be happy to work with the Committee and their 
staff on some of these potential revisions.
    So one of our key mottos is we want government information 
where and when it is needed. And we think the FDLP embodies 
this sentiment, and we are very proud to serve that need. We 
work with our libraries to build what we call the comprehensive 
national collection of U.S. Government information, and this 
work impacts researchers, students, legal and business 
communities, the public, and all who seek U.S. Government 
information in person, in our libraries, and through online 
access.
    So thank you very much for allowing me to tell you a little 
bit about what we do. And I am happy to respond to any 
questions that you have.
    [The statement of Ms. Hall follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    The Chairperson. Thank you very much.
    Ms. Hall. You are welcome.
    The Chairperson. And thanks to each one of our witnesses 
for your testimony.
    Now is the time when members have an opportunity to ask 
questions under the 5-minute rule. I would turn first to the 
Ranking Member for questions that he may have for the 
witnesses.
    Mr. Davis of Illinois. Thank you, again, Madam Chair.
    And thank you to the witnesses. I enjoyed your testimony. 
It is great to see you all.
    I will start just down at this end. Mr. Leary, what level 
of independence does your office have as an inspector general.
    Mr. Leary. Thank you for the question, Congressman. I 
appreciate it. I think it is pretty good, and it is improving. 
We just passed in the Congress this year, this past year, the 
Legislative IG Independence Act, which incorporated provisions 
for hiring, budget independence, as well as protections for my 
position that were consistent with the IG Act that applies, 
generally speaking, to the executive branch.
    It is an iterative process. Mr. Halpern and I have already 
had discussions since the passage of that Act about how to 
implement provisions that ensure that my office can work with 
the independence it needs to be effective. It is a critical 
component of the concept behind an inspector general.
    I also work very closely with--as I mentioned in my written 
testimony as well as my oral remarks--with Congress and with 
the JCP in particular. I know that the JCP exercises a 
management function as well as an oversight function. So that 
is an educational process for me, as well as I think in my 
interactions with congressional staff, is to make sure that 
there is recognition of when that management touches upon the 
independence of my office. And I think it has been working 
fairly well. We have good communications.
    Mr. Davis of Illinois. Building on what you just talked 
about with JCP and others, what is your view of congressional 
oversight, and what do you see as your office's 
responsibilities to the entire Congress?
    Mr. Leary. That is a great question. And one of the things 
that I have been thinking about a lot is the difference between 
management and oversight. And take it for what it is worth; it 
is just my definition. But management involves the process of 
engaging in decision making and the execution of decision 
making. Oversight is accountability for those decisions. There 
is a pretty big distinction there.
    So one of the things that we have honored about IGs is that 
they should only be generally managed. That is the way of 
ensuring their independence. So if we are going to do that, it 
has to happen both on the executive branch side--we are pretty 
clear--you know, there is an example, if we learned that the 
White House or anybody else, the Secretary or the Department 
wanted to get involved in how an office of an IG was managed, 
the Congress would be outraged, and say: Well, wait a second; 
you are interfering with the independence of that office.
    That same principal applies across the board. So that is 
the distinction I am trying to make sure is understood.
    Oversight is critical. Holding people accountable for the 
management of their functions, their agencies, that is what 
Congress can only do, and others cannot. And I dedicate my 
office to supporting that effort.
    Mr. Davis of Illinois. Thank you, Mr. Leary.
    It was great to meet you during my last tour of GPO. And 
thank you for your service to this country.
    Mr. Leary. Please, we all serve, Congressman. Thank you.
    Mr. Davis of Illinois. Mr. Halpern, welcome to the other 
side of the table. As you were sitting on the other side at the 
Rules Committee when we were offering amendments for years, I 
have been waiting for this day. Do you remember the 
transportation amendment that you didn't rule in order five-
and-a-half years ago?
    Mr. Halpern. I think we have got a long list of your 
amendments that----
    Mr. Davis of Illinois. I think we do. And I only have a 
limited amount of time. So I will stick with the GPO. But 
welcome, sir. We are very optimistic about your leadership at 
the GPO and excited to have you here today.
    What are your thoughts on how to improve the way GPO 
supports congressional documents?
    Mr. Halpern. So that is a great question. It goes to a 
little bit of what I was talking about this morning.
    Mr. Davis of Illinois. You specifically said--I don't have 
a lot of time--to talk about any ideas about any software 
program upgrades that can make GPO more user-friendly, 
especially when it comes to the legislative branch.
    Mr. Halpern. Absolutely. So one of the roles that I had for 
the committees that I serve was usually in the arena of 
document production. So I knew firsthand just how hard it is 
for committee staff and committee professionals to deal with 
GPO. And, frankly, the difficulty of that task often gets in 
the way of developing good content; of putting the information 
you want into that committee report. We have got to make that 
process easier. So, when you as Members and your staff are 
trying to put together, whether it is a committee hearing or a 
committee report, we need to meet you where you are today. And 
that, in 99 percent of the cases, is in Microsoft Word. We need 
to make it so that you can work in that application that you 
are using natively and make it so that you can focus on that 
content, and we can worry about how that gets formatted, how 
that gets printed, and how it gets displayed on the web and 
every place else.
    And so one of the things as we bring our new XPub 
comprehensive engine online, we are really designing with that 
idea in mind. So that, yes, leg counsel at some of the other 
offices, the clerk's office, they may use a specialized editor. 
But when we come to committees and you are producing a hearing 
or you are producing a report, my philosophy is we need to meet 
you where you are today.
    And so, as we develop the system, I think there are some 
real opportunities for us to do some development on that side. 
And as we move forward, as I was talking about, if Congress is 
willing, we can also revisit the way these documents look to 
make them more flexible, easier to format, and easier to 
display in the whole variety of media.
    Mr. Davis of Illinois. Thank you.
    The Chairperson. Very good.
    The gentlelady from California is right here.
    Mrs. Davis of California. Thank you, Madam Chair. Thank you 
all for being here.
    I wanted to go to a local issue in the San Diego community. 
And I thought perhaps you would know that San Diego downtown 
library is going to be giving up their Federal Document 
Depository status--actually after 137 years--probably, like a 
lot of decisions that are made, to free up space since 85 to 90 
percent of those materials are digitized and available online. 
Apparently, it wasn't without controversy. Honestly, I have to 
say I wasn't following the issue, but I think they did, and 
they felt it was the best way that they could respond to the 
way the public is really using their library.
    But in light of that decision of San Diego and I am sure 
others, I know that, Superintendent Hall, you spoke to this a 
little bit in terms of how we can really see the future of the 
Federal Depository Library Programs. And what are the 
incentives for them not moving forward with that decision? And 
what can we do if more libraries decide to go that direction?
    Ms. Hall. Thanks. That is a really good question. Actually, 
I have a report back from San Diego. I had staff go out there. 
They were out visiting yesterday. We have been talking to that 
library since probably before Thanksgiving. We have a lot of 
options for the libraries of that size. They had 1.6 million 
documents, and they have been in the program since like 1895. 
So they originally wanted to get rid of everything. I think we 
have convinced them now that that is probably not a good 
option. There may be some very historic and important documents 
in that collection that need to stay in that institution or go 
to other institutions in the State of California. And I think 
they are--as of yesterday the report is they are rethinking 
staying in the program in a different capacity. We can offer 
that library, like we offer a lot of our libraries, to be 
mostly digital or predominantly digital where they rely 
predominantly on what we have on govinfo. And then they can 
select some tangible materials if they want to. And we are in 
the process now of helping them go through that 1.6 million and 
decide how to move that material around to the California 
digital----
    Mrs. Davis of California. Do you think that perhaps the 
underutilization, is there a different role for outreach for 
the libraries or, even just the world that we live in right 
now, that people are not pressed to really access those?
    Ms. Hall. Well, I think that there is a combination of 
things. It takes a lot of interest at the library and the 
library staff themselves. We have other public libraries that 
are very similar situations that have incredible marketing and 
promotional things going on to promote the government 
information that they have. Sometimes we just have to get 
people in that position to really want to highlight what is in 
those collections. Because there are some really, really 
interesting things in those collections.
    Mrs. Davis of California. All right. Thank you. I 
appreciate it.
    Ms. Hall. You are welcome.
    Mrs. Davis of California. Director Halpern, I wanted to 
mention that one of my constituents asked why the GPO doesn't 
produce a Congressional Directory until about three-quarters of 
the way through Congress when it would be more useful to have 
it sooner. Is it supposed to be produced during the first 
session of each congressional session, and what is the problem? 
What should it be?
    Mr. Halpern. So I can get back to you exactly on the timing 
of those products. I do know that some of those products we 
rely on, we rely on Congress, our customer, to tell us when 
they are ready to print. So, for instance, the pictorial 
directory wasn't ready until just very recently. And that is 
because we have been working with the Committee on House 
Administration to prepare that document and make sure that is 
ready for print.
    Similarly, the full-blown Congressional Directory, I 
believe we worked with Congress and some of the other entities 
inside the GPO producing that document. There is sometimes a 
lot of different factors that go into the production schedule 
of these documents, including time we have got on presses for 
other more important documents or more time-critical documents. 
That said, I can get back to you with an answer on that.
    Mrs. Davis of California. All right. Great, and I will get 
back to my constituents. Thank you very much.
    The Chairperson. The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chair.
    Mr. Halpern, it is good to see you again. And I am still 
getting used to seeing you on that side. And I don't have the 
same issues that my colleague over here has. You approved all 
of my amendments--maybe it is the quality of the amendment that 
was the issue.
    Mr. Halpern. I will leave that to you, sir.
    Mr. Loudermilk. Okay. So anyhow. You mentioned earlier as--
it is has been mentioned several times--in your career, we all 
know what you have done here in the House. Tell us about your 
experience that contributed to your current position now.
    Mr. Halpern. So I am the first head of GPO who was also a 
customer. And, you know, up until when the name of the agency 
changed, the head of the agency was required to have a 
background in printing and graphic design and those things. And 
that requirement went away when they changed the name of the 
agency. And so I represent the very first person who has really 
been a practitioner, who has been someone who has utilized 
GPO's services on a regular basis. And as a customer, I have 
got to say, over the years, GPO has pulled many, many rabbits 
out of their hat and really done the work at all hours of the 
day to make sure that Congress could do its work. That said, I 
have also had many interactions with GPO that have--I think the 
polite way to put it have been less than satisfying. And so 
what I am trying to do is bring a customer perspective to all 
of the work that we do at GPO.
    Mr. Loudermilk. I appreciate that. As a former business 
owner, that is very important. And you mentioned the less than 
satisfying, we experienced that in previous hearings that we 
have had in previous Congresses with grave concern over GPO. 
During that time, GPO lost several executive branch customers. 
What are some of the ideas or things that you can do to remain 
competitive?
    Mr. Halpern. Well, the good news is we are trying to earn 
back as many of those customers as we can. And one success 
story is the economic report of the President, which had--the 
White House had decided to go elsewhere to print that document 
for six or seven years. They came back very recently. And that 
is a real success story.
    My belief, and the Chairperson alluded to it in her opening 
statement, GPO is different than any other agency because we 
operate as a business. Only about 13 percent of our total funds 
are appropriated, and even those really are just payments for 
services. So, for instance, the appropriation for congressional 
printing is just an accounting mechanism for Congress to deal 
with services we provide Congress on a daily basis.
    I tell my staff every single day: We have to earn every 
single dollar that we get. And we do that by providing the most 
value that we can for our Federal customers. That is not always 
the cheapest price.
    So one good example that I learned about early in my tenure 
were FBI fingerprint cards. That is something that is going 
digital. But there are still a number of jurisdictions that use 
the old-fashioned fingerprint cards.
    The FBI went to another vendor to produce those cards, but 
they--roughly around 20 percent of those cards were not usable 
because they weren't up to spec. We were able, at a slightly 
higher price per card, were able to produce cards that they 
could use virtually all of them.
    So it is that kind of value proposition that we are trying 
to bring to everything we do.
    Mr. Loudermilk. So one of the things that you said in your 
testimony that really hit home with me is simplifying our 
language for committee reports. This is something that I work 
with my communications staff to remove the D.C. talk, I mean, 
things like cosponsorship, sign-on, markups. These are things 
that the general public doesn't understand. What remedies do 
you have for these issues?
    Mr. Halpern. So I am going to sort of put on both hats here 
for a moment because, for better or for worse, I have probably 
drafted myself hundreds of committee reports over my career 
here.
    There are certain parts of those documents that have magic 
words, and we are not going to change that because those words 
do things. But I believe that there are large parts of those 
documents that you can tell a more persuasive story. That is 
how I always tried to do it in the reports I wrote for bills I 
managed for the Members I served. But the problem that we have 
got with our systems is that they don't encourage that kind of 
ease with writing. It is hard to take that story that you 
produced for your web page or for your committee memo and move 
that into that report document. We need to make that simpler. 
And I think if we make those tools simpler, people can spend 
more time actually thinking about the content of what is in 
those documents, and that is the important message that we have 
got to get across.
    Mr. Loudermilk. It is a challenge.
    And I see the red light is on. So, Madam Chair, I yield 
back the time I no longer have.
    The Chairperson. Thank you. The gentlelady from Ohio is 
recognized.
    Ms. Fudge. Thank you very much, Madam Chair.
    And thank you all for being here today.
    Mr. Halpern, have you had an opportunity to meet with all 
of the labor representatives? I know there are probably 12 or 
13 labor unions. Have you met with them all?
    Mr. Halpern. We have 11 separate bargaining units. I have 
met with them all together. We have two units without 
contracts, our electricians and our FOP, and I met with them to 
hear their concerns.
    Ms. Brady. So how long do you think it is going to take to 
come to a contract agreement?
    Mr. Halpern. I am hopeful that we will be able to do that 
as quickly as we can. I can tell you, just yesterday, I met 
with my staff again and directed them to go back and figure out 
viable counteroffers for both of our unions with outstanding 
contracts. So I hope to turn that around relatively soon.
    Ms. Fudge. Thank you. Can you give me an update on what 
your office is doing to support the 2020 Census?
    Mr. Halpern. Sure. So I am actually going to direct this a 
little bit back to Superintendent Hall because she is doing 
some of the work, and her folks are doing some of the work to 
get the message out about the Census. We are administering the 
contract for the Department of Commerce for all of the printed 
materials for the Census. I can tell you that that our 
contractor RR Donnelly is proceeding apace. Everything seems to 
be on schedule. And, you know, after kind of a rocky start with 
that particular contract, the Department of Commerce----
    Ms. Fudge. Mr. Halpern, I don't mean to cut you off. We--go 
ahead.
    Ms. Hall. Thank you. There are two parts that I am kind of 
responsible for. I think it was mentioned the agency 
Distribution Service. So, once the material is printed by our 
printing contractors, then we also have that sensitive material 
in two of our warehouse facilities: one in Laurel, Maryland and 
one in Pueblo, Colorado. So under contract and then we 
disseminate that as the Census wants us to to the various 
regions. So it is their promotional materials that they send 
out to their offices. So that is one part.
    And then the other part, I think, I mentioned, we worked 
with Census Bureau to get that information out to our 
depository library: flyers, posters, promotional material for 
people that walk into those libraries, know what the 
responsibility is, and how to fill out the Census and what some 
of the issues are.
    Ms. Fudge. So you believe you have all the resources that 
you need to ensure that we can have an accurate census?
    Ms. Hall. Right, right.
    Ms. Fudge. The last question to you, Mr. Halpern, how did 
you find morale in your office?
    Mr. Halpern. I was actually pleasantly surprised. You know, 
GPO--one of the things I can report from my 3 months on the job 
is how welcoming everybody has been. And I have had numerous 
folks come up and express their happiness that there is now 
permanent leadership. There are obviously lots of issues we 
have got to address, and we are collating those and working 
through them as we can.
    Ms. Fudge. Thank you.
    Mr. Leary.
    Mr. Leary. Yes, ma'am.
    Ms. Fudge. In your office's last semiannual report, you 
identified a need for GPO to attract and develop a workforce 
for the future. What did you mean by that, and how do you think 
that should happen?
    Mr. Leary. Thank you for the question, Congresswoman.
    Basically, in line with GPO's intent to transform to the 
digital age, we are going to have to restructure and reform a 
workforce that has those competencies. This is not a new 
effort. It goes back as far as--and one of the things your 
question gives me the opportunity to do is point out a GAO 
study that was done 15 years ago about GPO's transformation to 
the digital age. And there is a separate study done by GAO 
about the workforce that would be necessary to accomplish that. 
I have asked and I think it would be appropriate for GAO to 
review these two reports. And how does it work? Was it 
successful?
    I don't think there is some magic formula for this answer. 
It has been looked at for quite a while. We do have to have a 
focus on who has the skills for a digital publishing world. 
And, obviously, we talked about how old the GPO is: 159 years 
old. The building across the street, you probably see it from 
here, it looks like it is 159 years old. And all of it screams 
for modernization, workforce and everything else. I think the 
Director is well aware of this, and I am not saying anything 
new. We just have to keep focusing on it.
    Ms. Fudge. Thank you, Madam Chair. I yield back.
    The Chairperson. Thank you. The gentleman from California 
is recognized.
    Mr. Aguilar. Thank you, Madam Chair.
    Director Halpern and Superintendent Hall, Director, some of 
your testimony obviously talked about the type of 
modernization, digitization, I wanted to talk a little bit more 
down that line from an accessibility perspective. When will all 
the documents be available in digital format? And can you talk 
a little about the process on how that will work?
    Mr. Halpern. Sure. So I can break this into two parts. And 
for historic documents, Superintendent Hall is better versed in 
that than I am, as it is her group that is going back through 
the last 150 years to try to digitize those documents.
    What we are trying to do, both for our more recent 
documents and then going forward, we are trying to build a 
framework that makes digital availability a lot easier than 
what it is now. So I alluded earlier to our current generation 
digital typesetting system. That system was designed to produce 
print and in the very early 1980s, and it is still in use 
today. What we have done in the meantime as the internet has 
grown and there has been a need for digital documents, we have 
bolted on a series of additions to try and get digital formats 
available for folks. XPub, our new generation composition 
engine, really will have documents that are born digital. And 
as far as XPub is concerned, it doesn't care about what the 
output looks like. It can provide output in machine-readable 
format, for screens, for phones, or in a format that looks good 
for print. The problem that we have got is sort of the 
transition between what we have currently and what we have in 
the future. And that is much of the work we are doing now. And 
I will turn it over to Laurie on the historic documents.
    Ms. Hall. Thank you for the question. There are three ways 
we are getting collections into govinfo.gov. So. With the GPO 
access legislation, we have got 93 going forward. So we are 
working with our libraries to bring in collections of 
materials. We brought in, for instance, a huge collection of 
digitized material from Florida on the Panama Canal Commission. 
We also are doing collaborations with the Library of Congress 
for some major, major groups of documents. We have an agreement 
now with the Serial Set. We are going to go back to the very 
beginning and digitize the Serial Set. They are doing the 
digitization. And we get it; we prepare the metadata and ingest 
it into gov.info.
    And we are also working with agencies. You heard the Office 
of the Federal Register. We are picking up full runs of key 
legislative documents and key documents. And we are also doing 
some smaller stuff at Interior and U.S. Geological Survey. So 
there are so many documents out there to do. So we have to have 
some kind of priorities, but we are working through as much as 
we can.
    Mr. Aguilar. Director, can you talk to me a little bit 
about how people process information? I mean, right now, the 
audio book piece is kind of booming. I could click on an NPR 
article and get that article read back to me in four minutes--
or my morning news. Do you see in the future reports and longer 
form pieces that there could be audio versions. And can you 
also touch on kind of a disability-friendly perspective of the 
look of the website moving forward?
    Mr. Halpern. Absolutely. And Laurie can chime in here a 
little bit as well, or we can provide you with more 
information. I know we worked very hard to make gov.info 508 
and accessibility compatible as much as we can with the data we 
have. Again, as we bring xPub online, and that is the engine 
that is generating, for instance, congressional documents, that 
will enable us to do a lot more on the accessibility side and 
provide additional services because its native format is really 
going to be USLM, U.S. legislative markup language, which is a 
machine-readable format and is an extension of the current XML 
formats used by the House and the Senate.
    When we are working in that kind of native format, that 
enables us, again, to add on lots of other services. And you 
sort of couple that with some of the other services out there. 
You can have not necessarily an audio book read by a human, but 
you can also take that machine-readable format and have very 
good human, human-like speech generated by a computer that can 
read those documents. Word actually provides that capability 
now. And the more data we get in a standardized, machine-
readable format the easier those kind of services are.
    Mr. Aguilar. Thank you, so much.
    Thank you, Madam Chairperson, I yield back.
    The Chairperson. I just have a few remaining questions. 
First--not today--but could you provide us with a short update 
on the NextGen Passport program, not here at this moment, like 
a page subsequent to the hearing? I am interested.
    Mr. Halpern. Absolutely.
    The Chairperson. Also, I am interested in getting a brief 
update on what efforts the agency is taking in the wake of the 
defacement of the FDLP, the cyber attack in January and what we 
are looking at for cyber--not here at this moment----
    Mr. Halpern. Absolutely.
    The Chairperson [continuing]. But subsequent to this.
    Just a couple of questions. I was interested in your idea 
on accommodating the Microsoft Word that we are using here, but 
it raises the question of, how do you accommodate without 
promoting? For example, I mean, we use Word in my office, but a 
lot of lawyers still use Word Perfect because it actually works 
very well for footnotes and other things. So is there a way to 
accommodate without mandating?
    Mr. Halpern. Absolutely. Again, this sort of goes back to 
my general philosophy where we meet our customers where they 
are. Let me use the example of how we draft legislative 
language in this institution currently. So, in the late 1990s, 
early 2000s, we started to transition to an XML-drafting 
format. Well, that required a brand new editor that the folks 
needed to learn. And now we are at the stage where that editor 
is at the end of its life. And we are working with leg counsel 
and others to develop the next generation of that product.
    But if we get into the business working with our customers 
and, again, sort of meeting them wherever they are most 
comfortable, for most folks, that is in the Microsoft suite of 
products. You know, in 10 or 20 years, it could be the Google 
suite or something else.
    The Chairperson. Who knows.
    Mr. Halpern. What we need to do is figure out how we 
develop templates and other kinds of services so that our end 
users are comfortable wherever they are.
    The Chairperson. They are driving it rather than you.
    Mr. Halpern. Absolutely. And we can take that information 
and ingest that and then make sure it gets on gov.info, makes 
sure it gets onto paper, and all of the other things in 
between.
    The Chairperson. Very good.
    You know, one of the questions I have had for a long time--
I am very big on digitizing material. It makes it more 
accessible, but there are really two issues. One, I think about 
the recordings a century ago, and they were done on a little 
piece of wire. And the question is, how do you read that wire 
later? A hundred years from now, God willing, we will have all 
of this digital information, and we better be sure that we have 
the programs that allow us to assess that information. So it 
seems to me that the programs really need to be attached to the 
documents in some way so that, down the line, this will 
continue to be accessible. Can any of you address that?
    Mr. Halpern. I can give it a shot and Laurie probably can 
make me sound smarter. One of the huge benefits of shifting to 
a machine-readable format is, at its heart it is text. It is 
basically the most basic format we have, with tags. So, as long 
as you have sort of a Rosetta Stone that says, ``This is what 
these tags mean,'' I think that serves you for a very, very 
long time into the future for being able to read that. It is 
really at the least common denominator stage.
    We also, I know, work very closely with our friends at 
NARA, with the Archivist, to make sure that our output formats 
are in formats that they can access and keep.
    The Chairperson. Perhaps we can get a report on that from 
you, just not a whole library----
    Mr. Halpern [continuing]. Could.
    The Chairperson [continuing]. But just a short report with 
whatever you know on what other actors are doing because it is 
something that we do need to pay attention to.
    And, finally, on the digitization issue, I was over a few 
years ago to the Library of Congress looking at their 
documents. And you can go see documents written in Abraham 
Lincoln's own hand. So, if that were digitized, we would lose 
that. There is a difference between information and an 
artifact. And how do we right now give guidance to librarians 
and others to make that distinction between what is a 
historical artifact and what is a piece of information that 
should just be digitized?
    Ms. Hall. Thanks. That is a good question. We have staff 
now that are preservation librarians and have that particular 
background. We are doing all kinds of educational things with 
our libraries to make sure they know the distinction. We are 
setting up preservation plans with those folks who don't have 
them, you know, educating them on mitigation strategies for 
some of those materials that are in that kind of condition. 
Also we have that Preservation Steward program. So we know 
people do want to preserve some of the tangible materials. And 
we are providing all kinds of different services. And we are 
going to be starting to do some pilot programs specifically to 
assess condition of the material, because sometimes folks don't 
know if there is mold or other things, and then mitigation 
strategies if they are going to keep the tangible materials. So 
we were working with not only our folks but the folks at the 
Library of Congress on just those issues.
    The Chairperson. Thank you. You know, each one of you has 
mentioned title 44, and I am wondering, could we get subsequent 
to this hearing from each one of you individually some 
suggestions? I realize that may be unusual because, Director, 
Ms. Hall works for you, but she has been at GPO for 35 years.
    Mr. Halpern. Absolutely.
    The Chairperson. I think she probably has some insights 
that none of us would necessarily have and then share them with 
each other, as well the Committee, and let's see if we can have 
consensus on what makes sense to move forward on.
    And my final question really has to do with what we are 
doing, Director Halpern, you have an essential role in our 
legislative process. And I am wondering if you can describe for 
us in any way that is appropriate in this open setting your 
plans about keeping your workforce healthy, keeping operations 
uninterrupted during a public health crisis. As you know, we 
have a pandemic possibility. We have just--both the States of 
California and Oregon have announced that they are moving from 
containment and mitigation to the mitigation model in response 
to pandemic. We have nine cases in my county. So we are very 
concerned. We need to keep government going. What have you done 
to make sure we can do that?
    Mr. Halpern. Thank you for that. You are absolutely right. 
We view our mission first and foremost to support Congress' 
work. And as a result, we focus a lot of continuity of 
operations. Not just in the case of a pandemic, but in a whole 
host of different scenarios. We regularly conduct exercises 
with both the House and the Senate to make sure that all of our 
systems operate as planned.
    I expect to have a plan that I will share with the 
Committee later this week for our plans for responding to this 
specific issue. And, frankly, as we started discussing this 
last week----
    The Chairperson. It would be the same for any type.
    Mr. Halpern. Yeah. We were dusting off old plans. So it is 
one of those things where we can use a combination of telework 
and protections in the plan to make sure that we can continue 
to operate and serve Congress' needs.
    The Chairperson. That is very good. I have no additional 
questions. I would note that we may have additional questions 
for each of you. If so, we ask that you respond to them in 
writing as fast as you reasonably can. And the hearing record 
will be kept open for those responses, without objection. 
Thanks to the witnesses and, without objection, the hearing is 
adjourned.
    [Whereupon, at 11:14 a.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
